U.S. Department of Justice
Office of the Inspector General




An Investigation of the Department of
Justice’s Actions in Connection with
the Search for Absent Texas Legislators




                                  Office of the Inspector General
                                                 August 12, 2003
     AN INVESTIGATION OF THE DEPARTMENT OF JUSTICE’S ACTIONS IN
     CONNECTION WITH THE SEARCH FOR ABSENT TEXAS LEGISLATORS

I.     INTRODUCTION

       On May 11, 2003, over 50 members of the Texas legislature left Texas to
prevent a quorum in the Texas House of Representatives so that a proposed re-
districting plan could not be voted upon. On Monday, May 12, the Chief Clerk
of the Texas House of Representatives issued warrants directing “any Peace
Officer of the State of Texas” to “send for and arrest” the absent legislators and
return them to the Texas House of Representatives.1 See Exhibit A. At that
time, the Texas Department of Public Safety (DPS) began efforts to locate and
return the absent legislators to Texas. It was widely reported that DPS
employees, other Texas officials, and Congressional staff contacted various
federal agencies for assistance in locating and returning the absent Texas
legislators.

      Shortly thereafter, several Members of Congress requested that the
Inspectors General at three agencies – the Department of Homeland Security
(DHS), the Department of Transportation (DOT), and the Department of Justice
(DOJ or the Department) – investigate what role their respective agencies
played in the search for the absent Texas legislators. As a result of these
requests, the Offices of the Inspector General at DHS and DOT issued
investigative reports about this matter.2

      This report describes the results of the DOJ OIG investigation. In this
investigation, we attempted to identify any request made to a DOJ employee for
assistance in finding or returning the Texas legislators, and what those DOJ
employees did in response to the requests.

       The OIG determined that Department employees received various
inquiries and requests for assistance in connection with the absent Texas
legislators. Requests were received by Department employees at the Main
Justice Building in Washington, D.C.; by Federal Bureau of Investigation (FBI)
offices in Texas and Oklahoma; and by the United States Attorney in the
Western District of Texas. We found that, in response to these requests,
Department employees, with one exception, recognized that this was a state

       1 The warrants were administrative in nature (rather than based on a criminal or civil

statutory violation) and were provided for by the rules of the Texas House of Representatives.

       2   On June 13, 2003, the DHS OIG issued its redacted Report of Investigation that
discussed the role of the DHS Air Marine and Interdiction Coordination Center in the search for
the aircraft transporting the Texas legislators. On July 11, 2003, the DOT OIG issued its
report, which describes the actions of the Federal Aviation Administration (FAA) in the efforts
to locate the aircraft.
matter and did not provide any assistance to the search for the Texas
legislators.

       In one instance, an FBI special agent in Texas received a request for
assistance from an employee of the Texas DPS who was searching for two of
the absent legislators. The DPS officer and the FBI special agent worked
together on a local Joint Terrorism Task Force (JTTF).3 The FBI special agent
also had previously worked with (and was personal friends with) one of the
Texas legislators who the DPS was attempting to locate. To assist the DPS
officer, the FBI special agent made two calls to the cell phone of the absent
legislator who he knew. The FBI special agent spoke to his legislator friend,
and the legislator told the FBI special agent that he and other legislators were
in Oklahoma. The FBI special agent relayed this information to the DPS officer.

     Except for this one incident, Department employees responded that they
would not take any action in response to those requests or become involved in
any way in the search for the Texas legislators.

II.    THE OIG INVESTIGATION

      As noted above, the purpose of our investigation was to determine
whether any Department resources were used to assist in the search for, or
return of, the missing Texas legislators. Our investigation was therefore limited
to those employees and components within the Department of Justice,
including the FBI, United States Marshals Service (USMS), the United States
Attorneys’ Offices, and Justice Department Headquarters in Washington D.C.

      The OIG sought to uncover any requests to DOJ employees for assistance
with the search for, or the return of, the Texas legislators who were absent
from May 11 through May 15, 2003. We did not investigate – and it is beyond
the scope of our jurisdiction to review – the basis for or the appropriateness of
any actions taken by other federal or state officials in connection with the
search for the missing Texas legislators.

     In our investigation, we pursued all known or reported leads that
suggested potential involvement by DOJ employees in the search for the Texas

        3 A JTTF is a group composed of various law enforcement agencies that focuses on

terrorism and terrorism-related matters. Each of the FBI’s 56 domestic field offices now leads a
JTTF in its respective geographic area of responsibility. The FBI’s New York Division formed
the first JTTF in 1980. Participants in JTTFs include the Bureau of Immigration and Customs
Enforcement in DHS; U.S. Secret Service; USMS; U.S. Customs Service; Offices of the Inspector
General; Postal Inspection Service; Internal Revenue Service; Department of the Interior
Bureau of Land Management; U.S. Park Police; Defense Criminal Investigative Service; and
other federal, state, and local law enforcement agencies.



                                                2
legislators. In addition, we conducted a canvas of those DOJ offices most likely
to have been involved in this matter, including the FBI, U.S. Attorney, and
USMS offices in Texas and in the Eastern and Western Districts of Oklahoma
to determine if they received any requests for assistance in connection with this
matter.

       Although the actions of the Texas DPS in connection with this matter are
beyond the scope of this report and the jurisdiction of this office, we sought
information from the DPS about its contacts with DOJ employees. In addition,
to the extent that the Texas DPS possessed notes or documents that may have
corroborated or shed light on the contacts between DPS and DOJ employees,
we asked the DPS for these notes or the reasons why those notes no longer
exist.4

       In pursuing our investigation, the OIG conducted more than 25
interviews. We interviewed employees from the DOJ, the FBI, the USMS, the
Texas DPS, the Texas Attorney General’s Office, and the Office of United States
Majority Leader Tom DeLay. We also obtained and reviewed e-mail, telephone,
and computer records that relate to the inquiries made to the DOJ about the
missing Texas legislators.

       In the following sections of the report, we describe in detail the results of
our investigation. Section III contains our factual findings. In that section, we
detail the various inquires and requests which were made to Department
officials in connection with the search for and return of the missing legislators,
and the actions of Department employees in response to those requests. We
examine each request individually, first reviewing those made to Department
Headquarters, then those made to the FBI, followed by the requests to the U.S.
Attorneys’ and USMS offices. In Section IV, we identify the policies which
govern the actions taken by the Department in connection with this matter,
and we assess whether those policies were violated. In Section V, we provide
our conclusions and recommendation.




       4  The investigation of any allegations of misconduct by DPS employees or any
allegations against DPS employees for destroying documents would be outside the
jurisdiction of the OIG. Rather, these matters would be within the jurisdiction of
Texas State officials. In addition, any allegations of possible federal criminal violations
related to the destruction of documents would be under the jurisdiction of the FBI, not
the OIG. However, in our limited interviews of DPS officials, we did not see evidence
demonstrating a federal criminal violation.



                                             3
III.   FACTUAL FINDINGS

       A. Department of Justice Headquarters

              1. Inquiry from the Office of United States Majority Leader
                 Tom DeLay

       On May 13, 2003, William Moschella, the Assistant Attorney General in
the Office of Legislative Affairs (OLA), received a call on his cell phone from a
counsel to Majority Leader Tom DeLay (the Counsel).5 The Counsel previously
had served as a Principal Deputy in OLA and, prior to that, had worked with
Moschella as a staff member on the House Judiciary Committee. Moschella
said he was in a meeting when the call came in, but when he returned to his
office shortly thereafter, sometime between 8:30 a.m. and 9:30 a.m., he called
the Counsel back and had a short conversation of about five minutes.
According to Moschella, the Counsel said he was calling to find out if the
Department of Justice had any legal authority to intervene in the Texas
legislators matter, although the Counsel said he thought he knew what the
response would be. Moschella told the OIG that he understood the Counsel to
mean that he knew the response would be “no.”

      Moschella said the Counsel did not ask him to take any action, and
phrased his request as a legal question. The Counsel also told Moschella that
he had already spoken to Johnny Sutton, the U.S. Attorney for the Western
District of Texas. Moschella remembered that the Counsel mentioned that
Sutton was traveling and the Counsel had reached Sutton at the Dallas airport.

      Moschella told the OIG that he anticipated that the answer to the
Counsel’s question would be no, the Department could not intervene.
However, because this issue was not a matter within Moschella’s substantive
jurisdiction, he said he decided to consult with other Department officials and
he agreed to get the Counsel a quick answer.

     Moschella then e-mailed Edward Whelan, the Acting Assistant Attorney
General in the Department’s Office of Legal Counsel (OLC). Moschella copied
Deputy Assistant Attorney General Alice Fisher and Assistant Attorney General
Michael Chertoff, both of the Criminal Division, on the e-mail. In the e-mail,
Moschella described his conversation with DeLay’s Counsel and asked whether

         5 Moschella informed the OIG that, as a matter of policy, OLA does not normally release

information about who has contacted it for advice, or the substance of those contacts.
According to Moschella, this policy is intended to encourage Members of Congress and their
staff to contact OLA with concerns relating to DOJ policy issues. He said that disclosure of
specific inquiries could chill OLA’s relationship with Members of Congress. In this instance,
however, Majority Leader DeLay’s office has already disclosed the fact that his staff contacted
OLA in connection with this matter, and Moschella agreed to provide the details of the contact.


                                                4
“the Department has the legal authority to assist the Texas House’s Sergeant-
at-Arms enforce the ‘arrest’ warrant issued to bring certain Texas State
legislators back to Texas to vote.” The e-mail stated that the Counsel had
already spoken to U.S. Attorney Sutton, whose opinion was that the
Department did not have authority to intervene. The e-mail asked that
something be turned around in a “couple of hours” and suggested that “we give
them a preliminary read with the caveat that their [sic] are substantial issues
to consider.”

       In response to the e-mail, Fisher called Moschella on the telephone. She
told the OIG that her response to Moschella was that the Criminal Division is
not involved in enforcing warrants – that is the responsibility of the USMS.
She referred Moschella to Associate Deputy Attorney General Paul Murphy,
who handled USMS issues for the Deputy Attorney General’s Office. Fisher
said she told Moschella that “this is not something the Department should be
getting involved with.”

      Whelan told the OIG that after he received the e-mail from Moschella, he
sent a follow-up question to Fisher and Chertoff, asking if they knew of any
federal criminal violations that had occurred in the Texas legislator case. They
did not respond to Whelan’s e-mail. He told the OIG that he thought that any
idea of the DOJ getting involved in this matter struck him as “wacko.” He said
he presumed that Moschella was just checking, and that Moschella felt the
same way he did.

       Whelan told the OIG he thought about the matter for a couple of minutes
and could not think of any federal violation. He said he considered whether
there might be certain arrangements with local law enforcement regarding
assisting in detaining the people sought by Texas authorities. He said he
therefore e-mailed his question to Paul Murphy asking, “If Texas asked the U.S.
to arrest someone who was subject to an ordinary arrest warrant in Texas, is
there some existing agreement that spells out the terms and conditions of any
federal assistance? Or would this be an exercise of the inherent sovereign
power of the United States to assist a State?”

      Murphy responded to Whelan’s e-mail with an e-mail stating that the
USMS “does have the authority to pursue state fugitives . . . [b]ut that
authority, I believe, is limited to assisting state authorities to execute court-
issued felony warrants. I doubt that USMS, as it stands now, could take any
action on this matter. That’s my initial take on the legal issue. From a
practical standpoint, this is a hornet’s nest.”

       Moschella recalled a conversation he had with Whelan that same day in
which they decided that the DOJ would not write a legal memorandum on this
topic or conduct any further research. According to Moschella, within one to
two hours of his original conversation with DeLay’s Counsel, Moschella called
                                         5
the Counsel back to say that there was nothing the DOJ could do. Moschella
said he explained that the DOJ had no legal “hook.” He also said he told the
Counsel that the DOJ had not conducted an in-depth analysis of the issue.

     Moschella told the OIG he is not aware of any other inquiries or requests
made to the DOJ in connection with the search for or return of the legislators.

      The OIG interviewed DeLay’s Counsel about his contacts with the
Department on this issue. His recollection was substantially similar to that of
Moschella’s. Like Moschella, the Counsel described the two conversations he
had with Moschella on May 13, a few hours apart. The Counsel told the OIG
that he asked Moschella, “As a matter of law, is it appropriate for the
Department of Justice to assist the state of Texas to execute the warrants for
the Texas legislators?” The Counsel told the OIG that he explicitly informed
Moschella that he was simply asking him to look at a legal issue and was not
asking him to take specific action. The Counsel said that Moschella stated that
he understood the nature of the inquiry, and a few hours later Moschella told
the Counsel that the Department would not get involved.

      The Counsel told the OIG that he viewed his actions in bringing this
request to Moschella as constituent service, because Texas officials had asked
for Congressman DeLay’s help in this matter. The Counsel stated that he was
not aware of any other DOJ employees being contacted other than U.S.
Attorney Sutton. The Counsel also said he did not know of any DOJ
involvement in the search for the missing Texas legislators.

            2.   OLA’s Statement Regarding the Department’s Involvement
                 in the Texas Matter

       On May 13, 2003, OLA received a letter from Representative John
Conyers about the Texas matter. The letter stated that federal intervention in
the issue would be inappropriate and asked “on what authority any Federal
intervention would be based, and what precedent, if any, exists for Federal
action in such a case?” Moschella told the OIG that he wanted to respond to
the letter right away, because he knew the DOJ had not been involved in the
matter.

      A member of his staff drafted a response for Moschella’s signature.
Within the next few days, pursuant to its normal practice, the draft response
was circulated to the Criminal Division, the Civil Rights Division, the Deputy
Attorney General’s Office, the Executive Office for United States Attorneys, and
the FBI. The staff member also verified with all four U.S. Attorneys Offices in
Texas that they had taken no action to assist with the search for or return of
the absent Texas legislators.



                                        6
       The original draft of the response letter stated in part, “Accordingly, we
have no plans to deploy our law enforcement resources in connection with this
matter.” A Special Counsel in the FBI’s Office of Congressional Affairs who
reviewed the letter said she had some concerns about the tense used in that
sentence, because she thought that by the time the letter was issued the
legislators would be back in Texas. She told the OIG that, in her opinion, it did
not make sense to say that the Department had “no plans to deploy,” when
future deployment would essentially be moot. She therefore suggested
substituting the phrase “have not deployed.” It appears that her suggestion led
the DOJ to state in the letter that they “have not deployed and have no plans to
deploy our law enforcement resources in connection with this matter.” The FBI
Special Counsel told the OIG that at the time she reviewed the letter she was
not aware of any involvement by any FBI employee in the search for the Texas
legislators.6

       On May 16, 2003, OLA sent the letter, signed by Moschella, which stated
that, “We [the Department] are not aware of any information pertinent to the
Texas State legislators that would warrant action by federal law enforcement
authorities, including those of the FBI. Accordingly, we have not deployed and
have no plans to deploy our law enforcement resources in connection with this
matter.” A copy of the letter is attached as Exhibit B. The Department
subsequently sent the letter to 30-40 other Members of Congress who had
inquired about this matter.

      On May 30, 2003, the Department’s Office of Public Affairs issued a
statement with similar language: “[T]he Justice Department is not aware of
any information pertinent to the Texas State legislators that warranted action
by federal law enforcement authorities, including those of the FBI.
Accordingly, we did not deploy our law enforcement resources in connection
with this matter.”

       B.      Federal Bureau of Investigation

      The OIG canvassed various FBI offices to determine if they had any
involvement in the search for the absent Texas legislators, and we interviewed
several FBI employees about this matter. The following sections describe the
results of our investigation.




       6   As detailed below, an FBI special agent in Corpus Christi already had made several
calls in connection with the search for the legislators. However, the FBI Special Counsel did
not know of these calls when she reviewed the letter. She said she did not learn about the calls
until she read about them in the press on June 7, 2003.


                                                7
            1.    FBI Headquarters

       The OIG interviewed two members of the FBI’s Office of Public and
Congressional Affairs (OPCA) because we were informed that requests for
assistance received at FBI Headquarters likely would go to the attention of that
office. The OPCA is the only section within the FBI that is authorized to
respond to Congressional requests. The OPCA employees we interviewed said
they were unaware of any requests for assistance with the search for or return
of the Texas legislators.

            2.    FBI Dallas Division

       The Chief Division Counsel in the FBI’s Dallas Division reported that a
special agent in the FBI’s Sherman, Texas, Resident Agency (RA), received a
telephone call regarding the absent Texas legislators from a local Republican
Party member whose name the agent could not recall. The special agent also
could not remember the exact date of the call, but said it came in when the
news began to be aired about the flight to Oklahoma of the missing legislators.
The caller asked the special agent if the FBI could be “involved” if the Texas
legislators crossed state lines. The agent explained that the only way the FBI
could be involved was through an Unlawful Flight to Avoid Prosecution (UFAP)
warrant, and only if the Austin District Attorney’s Office issued a criminal
felony warrant and agreed to extradite and prosecute if the FBI located and
arrested the legislators. The agent further explained that the current situation
did not appear to be a criminal matter and that the voters or legislators should
address this in the future. The Dallas Division of the FBI took no action and
had no other involvement in this matter.

            3.    FBI El Paso Division

       The Chief Division Counsel of the FBI’s El Paso Division reported to the
OIG that the results of a survey of all division employees revealed that no
El Paso Division employees had any involvement with the search for the Texas
legislators.

            4.    FBI Oklahoma City Division/Ardmore Resident Agency

      We determined that the Ardmore, Oklahoma, RA of the FBI’s Oklahoma
City Division was contacted by the Office of the Texas Attorney General in
connection with the warrants for the absent Texas legislators, but the office
declined to provide any assistance on this matter.

      An FBI special agent in Ardmore told the OIG that on May 12, 2003, he
received a call from a southwest Texas area code. Although the caller identified
himself, the special agent did not hear the name. The caller said that the
                                        8
special agent should call the Attorney General of the State of Texas, and the
caller said that the Attorney General was in the Speaker of the Texas House of
Representatives’ office. The FBI special agent said he initially thought it was a
crank call. He responded that the Attorney General could contact him at the
same telephone number the caller had dialed.

       A minute later, the special agent received a call from Jay Kimbrough,
whom the special agent described as the Attorney General (AG) for the State of
Texas. (Kimbrough is, in fact, the Deputy AG.) According to the FBI special
agent, Kimbrough stated that Texas authorities had tracked the absent Texas
legislators to Ardmore, Oklahoma. According to the FBI special agent,
Kimbrough said the legislators had flown in an aircraft and that they had “run
out on Congress.” Kimbrough told the special agent, “we’ve got letters to order
them back.” The special agent said he asked whether the letter was along the
lines of a “contempt of Congress,” and Kimbrough said that it was. The special
agent asked whether there was a state statute or federal statute involved, and
Kimbrough said no. The special agent said he responded that, “It did not
sound like there would be much the FBI could do, but he said he would check.”
He asked Kimbrough to fax the letter to him.

      After receiving the faxed letter, the FBI special agent called his
supervisor, a Senior Supervisory Resident Agent in Muskogee, Oklahoma, and
discussed the letter. According to the special agent, the supervisor checked
with the FBI Oklahoma Division’s Chief Division Counsel who agreed that this
was not a federal matter and there was nothing the FBI could do.

       The special agent said he called Kimbrough back at the Office of the
Speaker of the Texas House of Representatives. The special agent stated that
the FBI could not be involved. He stated that it could become a federal matter
if there was a state charge and Texas obtained a UFAP warrant based on the
state charge.7 The special agent also told Kimbrough that, to request such a
warrant in this case, he should address himself to the Austin RA of the FBI.

      The OIG interviewed Kimbrough about these conversations. Kimbrough
stated that he called the FBI RA in Ardmore at the direction of Texas House
Speaker Tom Craddick, who told him that a game warden in Oklahoma said he
knew an FBI agent who had said he could help in returning the legislators
because they had crossed state lines. Speaker Craddick gave Kimbrough a
phone number, which turned out to be the number of the FBI RA in Ardmore.
Kimbrough said he called the number and spoke with the FBI special agent.
Kimbrough’s description of the two conversations was similar to that of the FBI
special agent, and Kimbrough confirmed that the special agent’s ultimate
response was that there was nothing the FBI could do. Kimbrough said he did

      7   UFAP warrants are discussed in more detail in Section III.C.1. of this report.


                                                 9
not have any contact with any other Justice Department employee in
connection with this matter. He said that, with the exception of the Ardmore
FBI special agent and U.S. Attorney Sutton, he was not aware of any Justice
Department employee being contacted in connection with this matter, other
than what he has read in press reports.

               5.     FBI San Antonio Division/Brownsville Resident Agency

       The Special Agent in Charge (SAC) of the San Antonio Division, Patrick
Patterson, reported that on May 12, 2003, two FBI special agents in the
Brownsville, Texas, RA were contacted by a Texas Ranger. The Ranger asked
the two special agents what the procedure was for establishing a “trap and
trace” on a telephone. Both special agents informed the Ranger that this
investigative technique required a court order. One of the special agents told
the SAC who conducted the canvass that he was aware that the Ranger’s
inquiry was made in connection with the search for the absent legislators. The
other special agent told the SAC that he later surmised that the inquiry was
made in connection with the missing legislators. Neither agent provided any
assistance to the Texas Ranger on this matter.

      At the OIG’s request, a canvass of the FBI San Antonio Division did not
reveal any other requests for information or assistance made of the division in
connection with the absent legislators.

               6.     FBI Houston Division/Corpus Christi Resident Agency

       We determined that, in response to a request from a DPS officer, an FBI
special agent in the Corpus Christi RA telephoned one of the absent Texas
state legislators to obtain information about his location and the location of one
other legislator. The FBI special agent subsequently provided this information
to the DPS officer. The following sections describe this incident.

                      a.     Telephone Call to Representative Juan Escobar

      The Corpus Christi FBI special agent told the OIG that he first learned of
the Texas legislators’ departure for Oklahoma on the news as he was driving to
work. He could not recall the exact date, but the records make clear that the
date was May 13. When the special agent reached the office that morning,
another FBI employee told him that information about the absent legislators
had come across their TCIC printout.8 The TCIC bulletin included the name of

          TCIC stands for the Texas Crime Information Center. TCIC printouts contain data on
           8

warrants, convictions, and other information relevant to law enforcement. According to the FBI
special agent, if the TCIC contains information relevant to the Corpus Christi area or to one of
their cases, that information is shared within the office. The OIG confirmed that on
May 12, 2003, at 6:09 p.m., a message was sent to all Texas law enforcement agencies stating:
(cont’d)

                                               10
a former Border Patrol agent and colleague, Representative Juan Escobar, who
had been a member of the Organized Crime Drug Enforcement Task Force
(OCDETF) in Corpus Christi prior to becoming a Texas state legislator in May
2003. According to the special agent, he got teased that day for being friends
with a “fugitive” because of the employees who worked in the Corpus Christi
FBI office he was the person who was the friendliest with Escobar.

      The FBI special agent told the OIG he has known Escobar for 12 years
and first met him when Escobar was an Immigration and Naturalization
Service (INS) agent. During the past four years, while Escobar had been with
the INS, the two men had spent many hours together working on OCDETF
cases, and they had become personal friends. Escobar, who left the Border
Patrol in March 2003 to run for Texas state representative, was elected in a
special election in early May 2003.

      The FBI special agent said that sometime during the morning of May 13,
he was speaking on the telephone with a sergeant from the Texas DPS. They
had been planning to work together that day in connection with a JTTF
matter.9 The DPS sergeant informed the FBI special agent that he would not
be able to work that day on their JTTF matter because the sergeant, along with
most of his unit, had been reassigned to locate the missing Texas legislators.
While the sergeant recalls speaking with the special agent about Escobar that
morning, he does not recall this specific conversation. In particular, he does
not recall asking the special agent to call Escobar.

      The FBI special agent said that he and the sergeant speak on the phone
almost every day related to their JTTF work. The special agent was unable to
say, with respect to the telephone call in connection with the search for the
absent legislators, whether he had called the sergeant initially, or whether the

“The following fifty-three legislators are reported to be absent from the 78th legislative session.
Under the Texas constitution and the rules of the Texas House of Representatives, these
individuals are subject to immediate arrest. Your assistance is requested in locating these
absent legislators. If a legislator is located, notify the nearest office of the Texas Department of
Public Safety. DPS will transport the legislators back to Austin and deliver them to the floor of
the House. If your agency has or develops any information concerning the whereabouts of any
absent legislator, please report that information to your local DPS office or call our tip line at
1-800-525-5555.” The notice then listed the names of the legislators, their dates of birth,
driver’s license information, and last known addresses. The message was rescinded on
May 13, 2003, at 8:45 p.m.

       9 The FBI special agent had, for the past 12 years, worked a variety of cases, several of

which have involved organized crime/drug enforcement task forces. These cases often involve
working with the Texas DPS. For the past eight years, he also has worked on OCDETF cases,
and numerous DPS Narcotics and Special Crime Services (SCS) units have been members of
the task force. Immediately after September 11, a JTTF was formed in Corpus Christi, which
at times included the entire Texas DPS SCS unit in Corpus Christi.



                                                 11
sergeant had called him. At some point during their first conversation that
day, he told the OIG, they began discussing Escobar. According to the special
agent, he suggested that the DPS sergeant simply call Escobar to find out
where he was and save himself the trouble in trying to locate him. The special
agent explained that the DPS sergeant also had worked with Escobar over the
past two years, so both he and the special agent had Escobar’s contact
numbers.10

      According to the special agent, the DPS sergeant responded that he did
not have Escobar’s numbers with him. The sergeant also said that the special
agent knew Escobar better than the sergeant did, so Escobar might be more
receptive to a call from the special agent. The special agent told the OIG that
he therefore agreed to “reach out” to Escobar.

        Shortly thereafter, the special agent contacted Escobar on Escobar’s cell
phone. According to the special agent, he and Escobar first chatted about non-
work matters, and the special agent congratulated Escobar on his election,
since it was the first time they had spoken since the election. After the “small
talk” including mention of Escobar’s retirement party from the INS, Escobar
began to explain what was going on with the legislators. He said the legislators
had been busy in session dealing with school financing and similar issues, and
“all of a sudden” the issue of redistricting was raised by the governor, so he
and his fellow legislators had “left.” Escobar said he was in Oklahoma with
“the rest of them,” and that they would not be leaving until the legislative
session was over.

       The FBI special agent told the OIG that during the conversation Escobar
“admitted” that he was in Oklahoma with the other legislators. The special
agent said he commented to Escobar something to the effect that, “one minute
he’s a law abiding citizen working with us, and the next minute he’s a fugitive.”
The special agent said his comment was made in a joking manner. Escobar
mentioned that a member of the Texas Rangers was in Oklahoma verifying the
location of the legislators. Escobar then said that he had to go and would call
the special agent back later. According to the special agent, this conversation,
which occurred before 10 a.m., lasted five minutes or less.

     Although Escobar’s recollection of the details of this conversation was
somewhat different, the main points were similar. According to Escobar,
sometime on May 13 he received a phone message from the FBI special agent.11

       10  The special agent told the OIG that he assumed Escobar was in Oklahoma with the
other legislators. (The fact that a number of the legislators were in Oklahoma had been
reported on the news that morning.)

       11   Representative Escobar said this message may have been as early as 12:20 a.m. on
May 13.


                                               12
The message was brief and simply requested a call back. Escobar called the
special agent’s office number, and the phone was answered by one of the
support staff at the FBI office in Corpus Christi. She commented something to
the effect of, “My, my Juan, you’re gone, and there’s a list for you guys.” The
FBI special agent was not in the office, so Escobar said he left a message for
him.

       According to Escobar, the special agent called him back at approximately
11 a.m., and they had a brief conversation lasting a minute or so. Escobar
said the special agent asked, “Hey, how are you doing?” and Escobar replied,
“Okay.” The special agent asked, “Are you in Oklahoma?” and Escobar said,
“Yes.” The special agent responded, “Okay.” They then had a brief
conversation about personal matters, such as how their families were doing.
Escobar said the special agent said something to the effect of, “Talk to you
later,” and the conversation ended.

        Escobar said he thought the call was a personal call, although it “sent a
flag” because he had not heard from the special agent in some time. Escobar
stated that his previous conversation with the special agent had occurred
shortly before Escobar had resigned from the INS on approximately March 20,
2003. On that occasion, Escobar told the special agent he was leaving to run
for office. The special agent told him to take care and wished him luck.
Escobar noted that the special agent did not contact him during the campaign
and did not contact him to congratulate him on winning the election. Escobar
said that between March 20, 2003, and May 12, 2003, Escobar had not heard
from the special agent.

       Escobar explained that he had known the special agent since 1991,
when Escobar arrived in Corpus Christi. He and the special agent began
working closely together in approximately 1999. From that point on, they
worked together on a daily or weekly basis, depending on the requirements of
their cases. The special agent had Escobar’s home and personal cell phone
numbers, and there were many occasions when the special agent contacted
Escobar at his home in connection with their task force work.

       Escobar at one point told the OIG that the special agent “never” called
unless it was work related. However, he acknowledged that the two had been
bike riding together “a couple of times” the previous fall, and when Escobar
was recovering from a knee injury the special agent had called him multiple
times in connection with that. After Escobar re-injured his knee in January
2003, they stopped going on bike rides.

                   b.    Additional Telephone Calls About Escobar

     After speaking with Escobar on May 13, the FBI special agent called the
DPS sergeant to say that Escobar was in Oklahoma, so that the DPS did not

                                        13
need to do any surveillance on him. The special agent told the OIG he could
not recall whether he reached the sergeant directly or not, and that he may
have relayed this message to someone else at SCS.

       We interviewed the DPS sergeant, who told us that the conversation in
which the FBI special agent informed him that Escobar was in Oklahoma was
the first conversation he could recall having with the FBI special agent that
day. The sergeant said he believes the FBI special agent contacted him rather
than the other way around. According to the sergeant, he told the special
agent that he was “tied up looking for Texas legislators,” and the special agent
responded, “I figured that.” The special agent then told the sergeant that
Escobar had called the special agent and said that he was in Ardmore,
Oklahoma – that they [the Texas legislators] were all up there in Oklahoma.
The sergeant said he had not told the special agent that he was doing
surveillance on Escobar. He said he would not have told him that because that
was not the case. According to the sergeant, during this call he did not realize
that the “Escobar” the special agent was referring to was the same Juan
Escobar they had both worked with on the drug enforcement task force. It was
not until the sergeant passed the information on to his captain that the
sergeant was informed by the captain that the Escobar in question was a
former law enforcement colleague.

       According to the DPS captain, whom we also interviewed, she and the
DPS officers under her command were assigned to find a number of the absent
legislators, although Escobar was not among those they were assigned to find.
Nonetheless, once she learned from the sergeant that the FBI special agent had
spoken with Escobar, she contacted the DPS Command Center to find out if
DPS also was looking for Escobar. The captain reported to the lieutenant at
the command center that the FBI had made contact with Escobar. The
lieutenant responded that he was not the one “calling the shots.” The captain
offered to call the FBI special agent to confirm the information about Escobar,
and the lieutenant told her to go ahead and do so.

      According to the DPS captain, she then called the FBI special agent. The
captain, who is also a member of the JTTF task force, said she speaks with the
FBI special agent on the phone an average of three to four times a week. She
asked the FBI special agent where Escobar was. The special agent told her
Escobar was in Oklahoma, that they were all in Oklahoma. The captain told
the OIG that this conversation lasted less than five minutes, perhaps as little
as two minutes. She said the conversation gave her the impression that the
FBI special agent had called Escobar because he knew him, not as an “official
act.” She stated that his tone was that it was a call to someone with whom he
worked. After the conversation with the special agent, the captain called the
DPS Command Center and reported that she had confirmed that the FBI had
information that Escobar was in Oklahoma.


                                       14
      The FBI special agent and Escobar had a number of additional
conversations that day. According to the FBI special agent, Escobar called the
special agent again approximately 30 minutes after their first conversation. In
a short telephone call, Escobar asked the special agent whether he had
previously called that day on behalf of himself or on behalf of the FBI. The
special agent responded that he could not answer for the FBI as a whole,
because he did not know what it was doing in Austin or in other parts of the
country, but that neither he nor anyone in the FBI Corpus Christi RA was
looking for Escobar. The special agent told the OIG he was not sure why
Escobar called him back to ask this question, but he suspected that after
talking with others in Oklahoma, Escobar became concerned that the FBI was
looking for him. During this phone call, the special agent said he told Escobar
that he hoped Escobar “knew what he was doing,” because if DPS had obtained
a warrant and Escobar had crossed state lines to avoid the warrant, then, if
requested, the FBI could get a UFAP warrant. The special agent told the OIG
that his motive in making these statements to Escobar was that, as a friend of
Escobar, he did not want to see Escobar’s law enforcement work and integrity
“go down the drain” over this. He was concerned that this could impact
Escobar's ability to get a concealed handgun permit, or otherwise negatively
impact what he had worked so hard for as a law enforcement agent.12

        Escobar first told the OIG that he could not recall such a conversation.
He said he did not recall the FBI special agent ever mentioning the warrant.
He also told the OIG that the special agent never threatened him or pressured
him to come back. After reviewing his cell phone records, he said he may have
called the special agent back at the end of the day to ask him what his calls
had “been about,” but he was not sure he had reached the agent to ask him
this question. He said he may have simply reached support staff at the FBI
office.

               c.     Phone Call to Determine the Location of Representative
                      Canales

       In the late afternoon that same day, May 13, at approximately 4:00 p.m.,
the FBI special agent learned that the Texas DPS had been assigned to conduct
surveillance at a location where Texas State Representative Gabi Canales was
expected to speak. The special agent told the OIG that he was not certain from
whom he first learned of this planned surveillance. However, the DPS captain
told the OIG that she or the DPS sergeant had called the special agent again on
May 13 to tell him that their unit might have to do surveillance to locate
Canales. She said they called because they did not want to expend DPS
resources needlessly conducting surveillance on someone who was out of state.

       12  This reflects the special agent’s mistaken belief that the warrant in question involved
potentially serious criminal and civil consequences.


                                                15
As a result, the DPS wanted the special agent to call Escobar again to find out
if Canales was with him in Oklahoma.

       According to the DPS sergeant, he told the FBI special agent, “If you’ve
got contact with Juan [Escobar], could you call and see if Gabi Canales is in
Ardmore too, because maybe then they'll cut us loose.” The special agent
responded that he would try. The special agent told the OIG that surveillance
is labor intensive and costly, and based on what Escobar had said during their
earlier conversation (that he was there with the “rest of them”), there was no
doubt in his mind that Canales was in Oklahoma with Escobar.

       According to the special agent, he called and left a message on Escobar’s
cell phone. In the message, he said he was calling to find out if Canales was in
Oklahoma, because the DPS was going to try to find her. The special agent
said he asked Escobar to call him back if he could so they would not have to go
“sit wherever they were going to sit.” According to the special agent, Escobar
called back approximately 40 minutes later. Escobar told the special agent
that Canales was in Oklahoma with him and that she did not plan to leave.
Escobar said the phone call was less than a minute long. According to both
the special agent and Escobar, they have not spoken again since that
conversation.

       With respect to their conversation about Canales, Escobar’s recollections
are similar in most respects. According to Escobar, the conversation was brief,
perhaps 30 seconds to a minute. Escobar was not certain about the timing of
when the call occurred, but he said that during this call the special agent
asked him how he was doing and then asked if Canales was there [in
Oklahoma]. Escobar responded, “Yeah, I’m looking at her right now.” The
special agent replied, “Oh, okay, that way we’ll pull surveillance off and not
have to spend any more money on her.” Escobar said the special agent did not
specifically indicate which law enforcement agency was doing surveillance.
Escobar told the OIG he later learned that DPS had been to his house.
Escobar said he does not recall the special agent asserting that he was calling
on behalf of the FBI, but Escobar assumed that was the case.

       After speaking with Escobar about Canales, the special agent called the
DPS sergeant and said that Escobar had informed him that Canales was also
in Oklahoma. The DPS captain told the OIG that she learned either from the
sergeant or the FBI special agent that Escobar said Canales was in Oklahoma.
She believes she received this information from the special agent prior to
1:00 p.m., because she told the OIG that it was at 1:00 p.m. that day that the
legislators in Oklahoma held a press conference in which they stated their
location and their intention to remain in Oklahoma. Shortly thereafter, the
captain went onto the Internet where newspapers were posting photographs of
the legislators who had been talking to the press. The captain found


                                       16
photographs on the web, including pictures of Canales, further confirming the
information from the FBI special agent.13

      Escobar told the OIG that shortly after his conversation with the FBI
special agent about Canales, he joked with Canales, “you’re becoming popular,
even the FBI is looking for you.” A week after his return to Texas, Escobar
received a call from the Associated Press. He is not sure how the media
learned of the phone calls from the FBI special agent, but assumes that it was
a result of his comment to Canales.

              d.      The Special Agent Informs his Supervisor of the
                      Telephone Calls

       The FBI Supervisory Senior Resident Agent (SSRA) in Corpus Christi told
the OIG that he recalls that, at some point on May 13, when he walked past
the FBI special agent’s desk, the special agent told him that he had called
Escobar and that they [the legislators] were up in Oklahoma. The special agent
told the OIG that he did not feel he had to keep his supervisor, the SSRA,
informed about the calls, but he thought the SSRA would find it interesting
because Escobar had worked in their office and the SSRA knew Escobar as
well. The SSRA was out of the office the rest of that day. The next day the
Special agent told the SSRA that he had spoken to Escobar again. According to
the SSRA, the special agent explained that the DPS sergeant had called to see if
the special agent could check to see if Canales also was in Oklahoma.

      According to both the special agent and the SSRA, the special agent had
not been directed by anyone in the FBI to place the calls to Escobar. The SSRA
did not express concern to the OIG that the special agent had made these
phone calls. The SSRA cannot recall any other discussion of the calls until
reporters contacted the special agent about the calls several weeks later.

       The SSRA said that, as the supervisor for the Corpus Christi and Victoria
RAs, he often keeps a record of assistance provided to local law enforcement in
a “control file.” He does this so that he can account for the man-hours put in
by his agents that do not appear elsewhere in FBI records. He said that with
respect to the special agent’s calls to Escobar, the SSRA did not keep such
documentation, because the activity was so minimal and there was never any
“official” request. The SSRA told the OIG that he did not view the phone calls
as “official” FBI calls.




       13 It appears the captain may be mistaken with respect to when she received this
information from the special agent, because the special agent’s cell phone records suggest he
spoke with Escobar about Canales after 3:00 p.m. on May 13, 2003.


                                               17
              e.      Notes and Records of the Special Agent’s Calls

       The OIG sought to obtain telephone records, notes, and other
documentation relating to these calls. The telephone records provided by the
FBI reflect only two relevant calls for May 13. The first relevant call is one from
the special agent’s cell phone to Escobar’s cell phone at 3:10 p.m. on May 13
lasting 1 minute and 12 seconds. The second is an incoming call at 4:21 p.m.
to the special agent’s cell phone from an unknown number that lasted less
than one minute. The phone records of the Corpus Christi RA do not reflect
any relevant call because local calls are not retained in the FBI’s regular phone
system.

       The telephone records provided by Escobar reflect a total of five calls
from his cell phone to the FBI office in Corpus Christi on May 13. They do not
reflect any phone calls to or from the special agent’s cell phone.14 The first call
was placed by Escobar to the FBI’s offices at 9:48 am on May 13 and lasted
approximately 2 minutes. Escobar said he believes he placed that call to
return the special agent’s first message. He believes a support staff person
paged the special agent within the office, but he did not come to the phone, so
Escobar hung up. The second call was placed by Escobar from his cell phone
to the FBI office in Corpus Christi at 9:54 a.m. and lasted approximately 1
minute. It is the call in which, according to Escobar, the support staff member
teased him for being a fugitive, as described above. The third phone call was
placed from Escobar’s cell phone to the FBI office in Corpus Christi at
11:08 a.m. and lasted approximately 4 minutes. According to Escobar, that is
the conversation in which he told the special agent about his location and they
briefly discussed personal matters. Escobar’s phone records reflect that he
subsequently checked his voicemail at 11:45 a.m. Escobar said that it was at
that point that he received a message from the special agent seeking another
call back. Escobar could not recall the exact contents of the message. The
phone records reflect that a fourth phone call was placed from Escobar’s cell
phone to the FBI Corpus Christi RA at 12:05 p.m. The call lasted
approximately 3 minutes. According to Escobar, he did not reach the special
agent on that occasion but spoke to someone on the support staff. The phone
records reflect a fifth and final call at 4:22 p.m. that lasted approximately
2 minutes. That may have been the conversation in which Escobar told the
special agent that Canales was with him. Neither the FBI agent nor Escobar
took any notes in connection with these conversations.




       14 This may at first seem unusual, given that the special agent’s cell phone records, as
described above, show an outgoing call to Escobar’s cell phone at 3:10 p.m. However, the
special agent stated that he left a voicemail message, and the Representative’s phone records
apparently do not show incoming calls that are connected directly to voicemail.


                                               18
       The DPS captain and sergeant told the OIG they could recall taking notes
in connection with their conversations with the FBI special agent. The
sergeant stated that he had destroyed his notes in connection with the search
for the legislators at the instruction of his superiors. However, he declined to
discuss the destruction of notes further. The DPS captain told the OIG that
she destroyed her field notes at the instruction of her commander. The captain
acknowledged that the Command Center may have made a record of the
information she passed on to them, but she has no specific knowledge of that.

      Marshall Caskey, the Chief of the Criminal Law Enforcement (CLE)
Division of the Texas DPS, which includes SCS, told the OIG that there may
have been some notation of the fact that the legislators discussed by the FBI
special agent and the DPS officers had been located. He stated that if such a
notation was made, it could have been among the notes that were destroyed
pursuant to an e-mail instruction on May 14.

       Chief Caskey stated that Title 28 of the Code of Federal Regulations,
Part 23, which regulates criminal intelligence systems operating policies,
prohibits his organization from keeping intelligence data on persons who are
not suspected of criminal activity. He stated that there was no criminal
predicate in this case that would have permitted CLE to maintain the
information gathered by DPS employees related to the search for the absent
legislators. Because it was determined that the Texas legislators matter was
not criminal, Caskey said that no field notes made in connection with that
matter could be placed in any of the CLE intelligence files. He added that
intelligence data cannot be mixed with investigative data.

       Chief Caskey told the OIG that Texas law provided authority for the DPS
to go and arrest the missing legislators. He said it therefore was appropriate
for the DPS to gather “skip-trace type” information on them – which included
details about their children and families. However, this is not the kind of
information, according to Caskey, which should remain in DPS intelligence files
when there is no allegation of criminal wrongdoing. Caskey also stated that no
formal reports were made in connection with this matter, so no reports were
destroyed, only field notes. He explained that field notes are often destroyed in
the normal course of business. He stated that Texas law does require that field
notes be kept and that the DPS is “not required to keep every jot.” He noted
that, in a normal case, he typically destroyed his field notes once his formal
reports were finished. He said this was a matter of personal choice, and that
field notes may be shredded.

      In addition, Chief Caskey noted that this situation, where notes
containing intelligence data were appropriately created in a situation were
there was no criminal predicate, was very unusual. He said there was “no
manual on how to do this.” He told the OIG that in this instance, the issue of
what to do with the intelligence data that had been gathered came up when a
                                       19
legal counsel in the DPS General Counsel’s Office raised the issue with him.
They discussed the propriety of “hanging onto the information” and the legal
counsel said it was not pertinent. Based on this conversation, Caskey
contacted the Commander of SCS and told him to make sure that the field
notes were not put into criminal files. The Commander then contacted his
secretary and had her send out an e-mail to carry out the Chief’s instruction.
However, Caskey said the e-mail went beyond what the Chief had intended,
because the e-mail included a directive to destroy all “correspondence” and
“photos.”

      Chief Caskey indicated that the DPS website contains large volumes of
documents produced in connection with the DPS’s conduct in this matter. He
asserted that the DPS did not destroy all its records in connection with its
search for the missing legislators. For example, he noted that the computer
“footprints” for the records checks that were done are retrievable and were
produced. He said no attempts were made to erase those records.

            f.    Other Cooperation with Local Law Enforcement

       The FBI special agent told the OIG that he was aware that there are rules
governing assistance by FBI agents to local law enforcement agencies. While
he did not know off-hand the details of these FBI policies, he stated that the
assistance he could provide depended on the level of FBI involvement in the
case and the type of assistance requested. He said that he does not believe
that the telephone calls he made were in violation of any FBI policy. He added
that there have been times in the past when he has contacted friends or
relatives of fugitives for assistance in finding fugitives. He also has provided
assistance to local law enforcement in the past along the lines of a computer
database check. As part of his task force work, he has assisted both DPS and
the Nueces County District Attorney’s Office by seeking to execute UFAP
warrants. While he realized that any information provided to him by Escobar
would have to be passed on to other law enforcement agents if relevant to their
investigation, he asserted that his purpose in calling Escobar was based on his
past relationship with and concern for Escobar.

      The Corpus Christi FBI SSRA also told the OIG that the FBI regularly
provides assistance to local law enforcement. For example, the Corpus Christi
RA works with local law enforcement on violent crime fugitive cases, including
instances where there is no federal warrant. Similarly, in certain
circumstances the FBI may need “back-up” from local law enforcement because
they do not have enough personnel to handle a situation. In that case, local
law enforcement provides assistance.

       The DPS sergeant also described a number of occasions where the FBI
has provided assistance to the Texas DPS in connection with work on a Texas
state case. He recalled instances in which FBI special agents assisted in
                                       20
searching for fugitives wanted by the state. He also believes that the DPS SCS
crime analyst regularly receives help from the FBI with her work, and she
provides assistance to the FBI when requested. The DPS sergeant stated that
law enforcement agencies in the Corpus Christi area, including local and
federal authorities, have a good working relationship. Other FBI agents and
officials with whom the OIG spoke described similar cooperation and
assistance.

       The FBI policies which govern an agent’s ability to provide assistance to
local law enforcement in such a situation are discussed in the analysis section.

       C.     U.S. Attorneys’ Offices

       The OIG also canvassed U.S. Attorneys’ Offices in Texas and the Western
District of Oklahoma to determine if they had any involvement in the search for
the missing legislators. The following sections describe the results of this
review.

              1.     U.S. Attorney’s Office for the Western District of Texas

      We found that the Office of the Texas Attorney General contacted the
U.S. Attorney’s Office for the Western District of Texas in connection with this
matter. Within a few hours of that contact, U. S. Attorney Johnny Sutton said
he responded that his office did not have jurisdiction in the matter and would
not get involved.

      Sutton told the OIG that he recalled being contacted on May 13, 2003,
when he was on his way from Texas to an Attorney General’s Advisory
Committee meeting in Washington, D.C. He received a page and called the
number indicated, reaching Barry McBee, First Assistant to Texas Attorney
General Greg Abbott.15 McBee asked whether there was any federal
jurisdiction for Sutton’s office to assist the State of Texas in getting the absent
Democratic legislators back. McBee said that a “Department of Justice” lawyer
was aware of the situation and had done some research on this issue. McBee
told Sutton he could talk to the lawyer (who, it later turned out, was the former
Department of Justice lawyer now serving as Counsel to Majority Leader Tom
DeLay, whose actions we describe in section III.A.1., above). McBee also
wanted to know if the FBI could become involved. McBee said his office had
contacted the FBI in Oklahoma and that the FBI would not do anything
without Sutton’s involvement. Sutton responded that he did not think there
was any federal interest in this issue, so McBee should keep his expectations
low, but Sutton said he would check.

       15  Sutton had had prior contact with McBee when Sutton was criminal justice policy
director for President Bush during the President’s campaign.


                                             21
       Sutton said he called his First Assistant U.S. Attorney (John Murphy),
his criminal Chief (Richard Durbin), and the Deputy United States Attorney
(Robert Pitman) and asked them to look into the matter. In a memorandum
dated May 13, 2003, Durbin wrote that he considered whether the United
States Attorney “may or should authorize the filing of a federal criminal
complaint charging unlawful flight to avoid prosecution in violation of
18 U.S.C. § 1073 based on a violation by Democratic State Legislators of a rule
of the Texas House of Representatives, that involves the legislators’ willfully
absenting themselves from the State of Texas to deprive the Texas House of
Representatives of a quorum.” Durbin concluded that the answer to that
question was no. He wrote that the statute at issue, the “Fugitive Felon Act,”
relates primarily to persons fleeing prosecution in a felony case. The absent
legislators were not charged with a criminal offense, and there was no evidence
that they fled to avoid prosecution for a felony, so the statute was not
applicable to them. Alternate provisions of the statute were deemed equally
inapplicable, because the legislators were not fleeing to avoid giving testimony
in a pending criminal proceeding or to otherwise hinder a criminal
investigation. Thus, the memorandum concluded that the Fugitive Felon Act,
18 U.S.C. § 1073, did not apply to this situation.

      Sutton told the OIG that at approximately 5:00 p.m. that same day, after
hearing back from his staff, he had a second conversation with McBee in which
he confirmed that his office had no jurisdiction to assist the State of Texas in
the matter. Sutton added that even if he did have jurisdiction, it was still a
state matter. Sutton also called the Counsel to DeLay, and they had a brief
conversation in which Sutton said this was not something he would get
involved with.

      Also on that same day, Sutton recalls reaching out to the Deputy
Attorney General's Office to give them a “heads up” about the call and the
issues raised. He said he reached Associate Deputy Attorney General Stuart
Levey, who agreed with his position that the Department should not get
involved. E-mail records reflect that Levey also spoke with two members of
Sutton’s staff on May 13 about whether anyone had asked them to intervene
and what the response had been.

      Sutton told the OIG he also left a voicemail message for Principal
Associate Deputy Attorney General Chris Wray, but he did not hear back from
Wray. Wray told the OIG he recalls bumping into Sutton in the hallway at the
Justice Department sometime later and discussing the matter with him briefly.
He agreed with Sutton’s assessment that the Department should not get
involved in this matter.

      The OIG also interviewed First Assistant Attorney General Barry McBee
in connection with these events. Both Sutton’s and McBee’s recollections are
                                       22
similar with respect to the substance of the calls, although their recollections of
the timing of the calls differ slightly. McBee believes that he first called Sutton
on May 12, and that they had a total of three brief calls. According to McBee,
during the first call, McBee asked whether there was federal jurisdiction.
During the second conversation, which took place later on May 12, Sutton said
that after a quick review his office did not think there was jurisdiction, but he
may have said he would “bounce it off people in D.C.” As McBee recalls it, a
third conversation occurred the next day when McBee paged Sutton and
Sutton called him back to say his office would not get involved.

       McBee’s phone records support his recollection about the timing of the
calls. They show a page from McBee’s state cell phone to Sutton’s pager at
6:42 a.m. on May 13, and an incoming call from an unknown number six
minutes later. During that conversation, according to McBee, Sutton
definitively stated that the federal government did not have jurisdiction in the
matter. McBee told the OIG that he is not aware of any Justice Department
employee providing any assistance with the search for the legislators.

       On May 13, Sutton’s office drafted a short statement for the press in
which he said, “The U.S. Attorney’s Office is not aware of any circumstances
involving the actions of Texas Legislators that fall within the jurisdiction of this
office. This matter falls squarely within the purview of the state authorities
and does not invite involvement by federal authorities.”

       A canvas of the employees in the U.S. Attorney’s Office for the Western
District of Texas revealed only one other inquiry in connection with this matter.
On May 13, Deputy U.S. Attorney Pitman received an urgent page in
connection with this matter from Texas State Representative Jack Stick, who
previously had been an Assistant United States Attorney in the San Antonio
office in the district.

      According to Representative Stick, he paged Pitman, who is a personal
friend of his, and Pitman called him back. They discussed a number of
personal matters during their conversation, which lasted a few minutes. Stick
said that approximately 20 to 30 seconds of their conversation was devoted to
discussing the Texas legislators’ matter. According to Stick, he told Pitman
that someone had asked him whether there was anything the “feds” could do.
Stick had told that person that he thought there wasn’t. Stick posed the
question to Pitman in their telephone call, and said Pitman responded, “I don’t
think so.” Stick said Pitman also may have said that he thought the
Department had already considered that question and had come up with the
same answer. One of them mentioned that a UFAP would not apply, because
“there is no ‘P’” (the “P” in UFAP stands for “prosecution”). The conversation
continued into personal matters and ended shortly thereafter. Stick said he
did not ask Pitman to take any action in connection with the Texas legislators,


                                         23
and he is not aware of anyone having asked any Department employee to take
action in connection with the Texas legislators.16

     We found no other contacts with anyone in the U.S. Attorney’s Office for
the Western District of Texas about this matter

               2.     U.S. Attorney’s Office for the Southern District of Texas

      Michael T. Shelby, the United States Attorney for the Southern District of
Texas, reported to the OIG that no employee in his office was contacted or
provided any information regarding the search for, or the return of, the absent
Texas legislators.

               3.     U.S. Attorney’s Office for the Northern District of Texas

      First Assistant United States Attorney James T. Jacks from the Northern
District of Texas reported to the OIG that no employee in that office had any
contact or was requested in any way to participate in the activities involving the
Texas legislators. He said no one sought any legal opinions or other
prosecutive function from his office.

               4.     U.S. Attorney’s Office for the Eastern District of Texas

      Deputy Chief Assistant U.S. Attorney for Management and
Administration Kerry Klintworth reported to the OIG that no employee in the
U.S. Attorney’s Office for the Eastern District of Texas was contacted or
provided any information regarding the search for, or the return of, the absent
Texas legislators.

               5.     U.S. Attorney’s Office for the Western District of
                      Oklahoma

       First Assistant U.S. Attorney Bob Troester reported to the OIG that, after
an inquiry of the entire office, he discovered no contact by state, local, or
federal officials regarding the search for or return of the absent Texas
legislators. Troester said that because he is the District’s press officer he
received some media inquiries in connection with those events, but he made no
comment other than to note that Ardmore, Oklahoma, is located in the Eastern
District of Oklahoma.




      16   Pitman is on extended leave, and we did not interview him.


                                               24
            6.    U.S. Attorney’s Office for the Eastern District of
                  Oklahoma

       Sheldon J. Sperling, U.S. Attorney for the Eastern District of Oklahoma
(which includes Ardmore, Oklahoma), told the OIG that he was contacted by a
Senior Supervisory Resident Agent in the FBI’s Oklahoma City Division about
the absent legislators. As discussed in Section III.B.4., an FBI agent in
Ardmore was contacted by the Texas Deputy Attorney General and the agent
contacted his supervisor. According to U.S. Attorney Sperling, the FBI agent’s
supervisor contacted Sperling to confirm that the FBI should not become
involved in this matter. Sperling told the OIG that he reviewed a copy of the
letter from the Texas authorities that had been faxed to the FBI special agent in
Ardmore. Sperling told the OIG that he “cautioned” the FBI agent against any
FBI action concerning this matter. He told the OIG that he provided similar
guidance to the U.S. Marshal for the Eastern District of Oklahoma.

      D.    United States Marshals Service

            1.   United States Marshals Service for the Western District of
                 Texas

       The USMS office for the Western District of Texas was contacted by the
Texas Rangers for information regarding how the Rangers had handled a
similar situation in the past. However, the Rangers did not request assistance
in locating or returning the absent Texas legislators.

      The OIG interviewed United States Marshal Jack Dean. He told the OIG
that on the day the legislators went missing, a Senior Captain with the Texas
Rangers (a division of the DPS), contacted him to find out how the Texas
Rangers had handled the situation when a group of state senators were absent
under similar circumstances in 1979. Dean explained to the OIG that he had
been Chief of the Texas Rangers before retiring and coming to the Marshals
Service. In 1981, when he was a member of the Texas Rangers, Dean had
hired the Senior Captain and Dean said they are personal friends.

      Dean said that when the Senior Captain contacted him about the absent
Texas legislators, he wanted historical information regarding how the Rangers
handled the senate situation in 1979, because those events occurred before the
Senior Captain worked at DPS. Dean told the OIG that he was willing to
provide the historical information, but the call ended abruptly when the Senior
Captain said, “I’ve got to go. I think they found them.” Dean said the
conversation lasted approximately two minutes. He said the Senior Captain
did not ask Dean for actual assistance in locating the missing legislators.

      The OIG contacted the Senior Captain about this matter. He said he has
a vague recollection of having a very brief conversation about this matter with
                                       25
Dean. He noted that he and Dean are close personal friends and talk
frequently about a number of topics. His recollection was that he said
something to the effect of, “Hey, what did the Rangers do back then? What was
their participation?” and Dean may have responded, “They all [the senators]
came back. No one got arrested.” The Senior Captain stated that he did not
request Dean’s assistance, nor did Dean offer any assistance in this matter.

      Dean told the OIG that, other than this one phone call with the Senior
Captain, he was not aware of any contacts with, or requests made to, the
USMS in connection with this matter by the DPS or by other Texas officials.
He said that to the best of his knowledge, neither he nor any member of the
USMS’s Western District of Texas had received any request to assist in any way
with the matter.

            2.     U.S. Marshals Service for the Southern District of Texas

      Ruben Monzon, the U.S. Marshal for the Southern District of Texas,
reported to the OIG that no employee in his district was contacted for
information nor gave assistance to any federal, state, or local official in
connection with the search for the absent Texas legislators.

            3.     U.S. Marshals Service for the Northern District of Texas

       Anthony Odom, Chief Deputy U.S. Marshal for the Northern District of
Texas, responded to the OIG that an unknown male caller contacted its office
and asked, “what would be necessary for U.S. Marshals to be involved in the
arrest of the missing Texas legislators.” A representative of the USMS office
replied that the office would have to receive a request for assistance from the
responsible agency, state or local, that held warrants for the missing
legislators. And, if such request was made, and it was determined the missing
legislators were in another district, the request would be forwarded to the other
district. According to the USMS representative, the caveat also was made that
individual USMS offices could choose, even if a request was made, not to
assist.

            4.     U.S. Marshals Service for the Eastern District of Texas

       John L. Moore, U.S. Marshal for the Eastern District of Texas, reported
to the OIG that he polled his staff and no one in his district participated in any
activity or was contacted for any assistance in this matter.




                                        26
             5.    U.S. Marshals Service for the Western District of
                   Oklahoma

       Michael W. Roach, the U.S. Marshal for the Western District of
Oklahoma, reported to the OIG that his office had no involvement in returning
the legislators to Texas.

             6.    U.S. Marshals Service for the Eastern District of
                   Oklahoma

       John W. Loyd, the U.S. Marshal for the Eastern District of Oklahoma,
reported to the OIG that his office did not receive any requests to assist with
the search for or return of the absent legislators. He said that neither he nor
his office had any involvement in this matter.

IV.   OIG ANALYSIS

       As described above, we found that DOJ employees received a total of nine
requests for information or assistance in connection with the absent Texas
legislators. Eight of these requests resulted in no action being taken by the
DOJ to find or seek the return of the legislators. Those eight inquiries, and the
responses given by the DOJ employees, are summarized as follows:

         •   A member of Majority Leader Tom DeLay’s staff called a senior DOJ
             official to inquire whether the Department had the legal authority
             to assist the Texas authorities in enforcing the warrant for the
             absent legislators. The Office of Legislative Affairs, after brief
             consultation with other Department divisions, declined to provide
             assistance.

         •   An unknown Texas “Republican party” member contacted a special
             agent in the Dallas Field Division of the FBI and asked if the FBI
             could be “involved” if the Democrats crossed state lines. The agent
             responded that the FBI would not be involved because this did not
             appear to be a criminal matter.

         •   A member of the Texas Attorney General’s Office contacted the
             Ardmore, Oklahoma, Resident Agency of the FBI to find out if there
             was anything the FBI could do in the matter. After briefly checking
             with his superiors, an FBI agent responded that there was nothing
             the FBI could do.

         •   A Texas Ranger contacted two FBI special agents in the
             Brownsville, Texas, Resident Agency of the FBI and asked what the
             procedure was for establishing a “trap and trace.” Both agents

                                        27
             informed him that this investigative technique required a court
             order.

         •   A Texas State representative who had worked as an Assistant U.S.
             Attorney contacted a Deputy U.S. Attorney in the San Antonio
             office. They had a brief conversation in which the representative
             asked if the federal government could do anything with respect to
             the absent legislators. The Deputy U.S. Attorney said that he did
             not think so.

         •   A member of the Texas Attorney General’s Office contacted the U.S.
             Attorney for the Southern District of Texas. The U.S. Attorney had
             his staff research the issue and responded that his office had no
             jurisdiction, but even if there was jurisdiction, it was a state matter
             and his office would not assist.

         •   A member of the Texas Rangers asked the U.S. Marshal for the
             Western District of Texas how a similar situation had been handled
             when legislators were absent from the Texas senate in 1979. The
             Marshal provided a brief response, based on his recollection from
             his work for the Rangers during that time.

         •   An unknown male contacted the U.S. Marshals service for the
             Northern District of Texas and asked what would be necessary for
             the Marshals to become involved in the arrest of the legislators. A
             representative of the office provided a brief description of the
             relevant procedures.

      In these eight instances, the relevant DOJ employees promptly and
appropriately declined to become involved in this state matter. In some of
these instances, the employees quite reasonably consulted with their
supervisors or did some checking before responding to the inquiry. In other
instances, the employees provided an immediate response.

       In only one instance did we find that a DOJ employee took action in
connection with the search for the Texas legislators. We determined that a
special agent in the Corpus Christi FBI RA contacted Texas State
Representative Escobar two times when he was in Ardmore, Oklahoma. On the
first occasion, in response to a request from the Texas DPS, the FBI special
agent determined that Escobar was in Oklahoma and reported that information
to the DPS. On the second occasion, in response to another request from the
DPS, the FBI special agent called Escobar to determine if another
Representative, Gabi Canales, was also in Oklahoma. The special agent
reported this fact to the DPS as well.



                                         28
       In evaluating the appropriateness of the special agent’s actions, we
considered several factors. First, a threshold issue is whether the special agent
made these calls in his “official capacity.” We conclude that he did. Even
though the special agent and Escobar had a personal friendship, their
relationship was primarily that of former colleagues. Moreover, the special
agent called Escobar while on duty, from his office, at the request of the Texas
DPS. Escobar knew that the special agent was an FBI agent. While they
discussed personal matters on the phone, according to the special agent the
purpose of the calls was to obtain information for the DPS on the whereabouts
of Escobar and Canales. Thus, though some of the statements the special
agent made during his conversations that day with Escobar were motivated by
personal concerns, the calls themselves must be viewed as actions taken by the
special agent in his official capacity.

      The next question is whether the special agent violated any statute or
FBI policies by placing the calls. After careful review and consultation with the
FBI, we did not find that the agent violated any FBI policy.

       FBI policy prohibits employees from divulging information obtained in
their official capacities. Manual of Investigative Operations and Guidelines
(MIOG), Part 1, Section 1-19(2). The MIOG, however, specifically states that
the “FBI is authorized to acquire, locate, or pass on various records to local
agencies, effect cooperation between local law enforcement or verify the location
of a person whose interview is desired for a local or state law enforcement
agency.” MIOG, Part 1, Section 62-3.2.17 The policy states that, “The FBI, on
behalf of a local or state law enforcement agency, may verify the location of an
individual. No interviews with subjects, suspects, or witnesses should be
conducted by Bureau personnel. No extensive efforts are to be expended to
locate individuals for interviews. FBI personnel are to merely verify their
whereabouts, such as a residence address or employment, etc.” MIOG, Part 1,
Section 62-3.3(3). The actions of the special agent appear to fall squarely
within above policy. He was asked by a local law enforcement agency to “verify
the location of any individual.” He did not interview the individual. He did not
expend “extensive” efforts. Indeed, the phone calls he made were not long
distance, because Representative Escobar had a local cell phone number. The
special agent simply verified the whereabouts of the representatives and passed
the information to local law enforcement.

      The FBI’s Manual of Administrative Operations and Procedures (MAOP),
also provides that, “Dissemination [of information] to any state or local

       17   This provision is based on Title 28 of the United State Code, Section 534, which
relates to the Attorney General’s authority to acquire and preserve identification, criminal, and
other records, and to exchange those records with federal, state, city, penal and other
institutions.


                                                29
government agency should be restricted as a general practice to those agencies
directly engaged in the criminal justice process, e.g., police, prosecution, penal,
probation, and parole and the judiciary, and only where access is directly
related to a law enforcement function of a recipient agency, e.g., in connection
with a lawful criminal or intelligence investigation . . .” MAOP, Part 1, Section
9-3.1. According to the DPS officers interviewed by the OIG, they were
collecting intelligence information and were conducting surveillance in an effort
to execute a warrant, albeit a non-criminal warrant. Chief Caskey described
the field notes taken in connection with this matter as “intelligence data.”
Thus, because the request regarding the whereabouts of Escobar and Canales
was made to the FBI special agent by members of a law enforcement agency
who were conducting an intelligence investigation, the MAOP policy permitted
the FBI agent to disseminate the information to them.

       According to the MAOP, the special agent was not required to open a file
in connection with his calls to Escobar. See MAOP, Part 2, Section 2-5.1. FBI
case files must be opened when substantial work is done on a case; for
example, when “one or more interviews are to be conducted” or “when an
informant is being operated.” MAOP, Part 2, 2-5.1. An FBI form exists that
can be used for noting an inquiry made with respect to a person or subject in a
particular case (the FD 159). However, that form is generally used when there
is an existing case file in which to place the form.

      The FBI special agent’s supervisor told the OIG that, in some instances,
he keeps a record of the expenditure of his agents’ time on local law
enforcement matters so that he can justify how their time is spent. The
supervisor told the OIG that time spent on this matter was so minimal,
however, that no such record was kept. The absence of a record of these calls
in FBI files is not a violation of FBI policy.

      Further, the special agent’s calls to Escobar did not constitute a misuse
of government property, as defined in MAOP, Part 1, Section 1-3. Even if the
special agent’s calls to Escobar were, in part, motivated by their personal
friendship, given that the special agent intended to (and did) pass on
information he obtained during the calls to representatives to the Texas DPS,
the calls cannot be viewed as “personal” calls.

       FBI personnel are prohibited from engaging in political activities when
they are in contact with the public while they are on duty. MAOP, Part 1,
Section 1-18.3.2. According to the policy, the reason for this prohibition is
that, “[t]he FBI, like all law enforcement agencies, must be perceived by the
public as nonpartisan and apolitical.” Although the FBI policy does not define
the term “political activity,” the entire section of the MAOP on “Political
Activities,” when read as a whole, suggests that the term applies to actions
such as voting, expressing opinions on political subjects, and displaying


                                         30
political pictures, stickers or badges. We do not believe that the special agent’s
phone calls to Escobar constituted impermissible on-duty “political activity.”

V.    OIG CONCLUSIONS AND RECOMMENDATION

      With one exception, the Department’s employees declined to become
involved in the search for, and the return of, the absent Texas legislators. In
the case of the FBI agent in Corpus Christi, given the FBI policies as they
currently exist, the agent was in a situation where he had to decide whether to
exercise his discretion to either decline the request or, alternatively, to assist
the Texas DPS. The agent had a close working relationship with the requestors
and was friends with the person whom they wanted the agent to contact. He
mistakenly believed there was a criminal element to this matter, because law
enforcement officers making the request were using terms typically used in
criminal cases, such as “warrant.” All these factors played into the agent’s
decision to assist Texas DPS by making the calls.

      We believe the agent should have declined the request as a better
exercise of his discretion. He also might have consulted with colleagues or
supervisors to get their opinion about his becoming involved, given that he
already was well aware that the matter stemmed from a political dispute and
was of substantial public importance. In addition, had he more carefully
evaluated the situation, he may have recognized that there was no federal
interest at stake and no criminal element to the request.

       We also note that the Texas DPS was able to determine through
television and the Internet that both Escobar and Canales were in Oklahoma.
In addition, this is not a situation where public health or safety was at issue.
This further supports our conclusion that it would have been a better practice
for the FBI special agent not to involve himself, and therefore the FBI, in this
matter. However, we do not believe he committed misconduct or violated any
FBI policy.

      Finally, the expansion of the Joint Terrorism Task Forces to all 56 FBI
Divisions has brought FBI agents into even closer contact with their local law
enforcement counterparts during a time of increasing demands on law
enforcement resources nationwide. FBI agents will continue to require
assistance from local law enforcement on cases of primarily federal interest,
and FBI agents, in turn, may be asked for assistance by local law enforcement
colleagues with their cases. Given such requests, we believe the FBI should
examine the written guidance it provides to its agents with regard to how to
evaluate and respond to requests for assistance from local law enforcement. In
doing so, the FBI should consider clarifying, consolidating, and reinforcing
various policy directives that relate to this topic. The guidelines should seek to



                                        31
encourage cooperation, when appropriate, and also seek to better assist FBI
agents to determine when they should decline to provide assistance in response
to such requests.




                                      32
Errata

Since the initial public release of the report on August 12, 2003, the OIG made
three changes to the report:

Page 10, subpart 5: Instead of “FBI San Antonio Division/Austin Resident
Agency” the phrase has been changed to “FBI San Antonio Division/
Brownsville Resident Agency”

Page 27, final bullet: instead of “two FBI special agents in the Austin, Texas,
Resident Agency” the phrase has been changed to “two FBI special agents in
the Brownsville, Texas, Resident Agency”

Page 28, second bullet: instead of “A member of the Texas Attorney General’s
Office, and a member of Majority Leader Tom DeLay’s staff, contacted the U.S.
Attorney for the Southern District of Texas” the sentence has been changed to
“A member of the Texas Attorney General’s Office contacted the U.S. Attorney
for the Southern District of Texas.”




                                        33
List of Exhibits

Exhibit A          Warrant issued by Texas House of Representatives for
                   Representative Juan Escobar

Exhibit B          Letter sent to Congress signed by AAG Moschella




                                       34
                                                                                                  Exhibit A




                                  HOUSE OF REPRESENTATIVES



IN THE NAME AND BY THE AUTHORITY OF THE
HOUSE OF REPRESENTATIVES, STATE OF TEXAS

TO: The Sergeant-At-Arms of the Texas House of Representa1tives and to any Peace Officer of the State
      of Texas:

GREETINGS:

Pursuant to Art. 3, Sec. 10, Texas Constitution and in accordance with the Rule 2, Section 4(6) and Rule 5,
Section 8, Rules of the Texas House of Representatives, by order of the majority of the members of the
Texas House of Representatives present:

You are hereby directed to send for and arrest The Honorable Juan Escobar, Member of the Texas House of
Representatives, wherever he may be found, and to return that person to the Hall of the Texas House of
Representatives and there secure and retain that person.

Herein fail not. So ordered this 12th day of May, 2003.
                                                                                               Exhibit B




                                                         U.S. Department of Justice

                                                         Office of Legislative Affairs


Office of the Assistant Attorney General                 Washington, D.C. 20530

                                                         MAY I 6 2003

The Honorable John Conyers, Jr.
U.S. House of Representatives
Washington, DC 20515

Dear Congressman Conyers:

         This responds to your letter, dated May 13, 2003, to the Attorney General, which expressed
concern about press reports regarding the deployment of any federal law enforcement resources in
connection with Texas State legislators who are working in Ardmore, Oklahoma. We understand that
your letter also was addressed to the Department of Homeland Security, which will respond separately
about matters within its jurisdiction.

        We are not aware of any information pertinent to the Texas State legislators that would warrant
action by federal law enforcement authorities, including those of the FBI. Accordingly, we have not
deployed and have no plans to deploy our law enforcement resources in connection with this matter.

        We hope that this information is helpful and that you will contact this office if you would like
additional assistance regarding this or any other matter. We will send identical letters to the other
Members who joined in your letter to us.

                                                         Sincerely,




                                                         William E. Moschella
                                                         Assistant Attorney General
